              U.S. Department of Energy
              Office of Inspector General
              Office of Audit Services




Audit Report

Management Controls over the
Federal Energy Regulatory
Commission's Unclassified Cyber
Security Program - 2006




OAS-M-06-10                         September 2006
                              Department of Energy
                                  Washington,         DC 20585
                                 September 25, 2006




MEMORANDUM FOR THE EXECUTIVE DIRECTOR, FEDERAL ENERGY
               REGULATO Y COMMISSION
                                  ,                             -x,
FROM:                    Rickey k. ~     a    k
                         Assistant Inspector General
                           for Financial, Technology and Corporate Audits
                         Office of Inspector General

SUBJECT:                 INFORMATION: Audit Report on "Management Controls over
                         the Federal Energy Regulatory Commission's Unclassified
                         Cyber Security Program - 2006"

BACKGROUND

The Federal Energy Regulatory Commission (Commission) has developed and
implemented a number of information systems to support its mission of regulating the
natural gas industry, hydroelectric projects, oil pipelines, and wholesale rates for
electricity. Because of the increasing frequency and sophistication of cyber attacks, the
potential for malicious intrusion and damage to these information technology assets and
the information they contain continues to grow. During 2006, the Commission estimated
that it spent almost $1 million to protect its $27 million information technology
investment from cyber related threats. The importance of maintaining a robust cyber
security program is well demonstrated by the debilitating effects that recent attacks on
Federal organizations have had on mission performance, agency reputation, and on
constituents that have been subjected to compromise of personally identifiable or
sensitive data.

As required by the Federal Information Security Management Act (FISMA), and
consistent with Congress's desire to develop a comprehensive framework to protect the
government's information technology operations and assets, the Office of Inspector
General is required to perform an annual independent evaluation of the Commission's
cyber security program. This evaluation is designed to assess the adequacy and
effectiveness of information security policies, procedures, and practices, and compliance
with the requirements of the FISMA. This memorandum and the attached report present
the results of our 2006 evaluation.

RESULTS OF EVALUATION

The Commission has continued to strengthen its cyber security program and has
completed corrective action on several issues identified during our previous review. In
particular, the Commission:


                               @      Pnnled wnh soy mk on recycled paper
       Improved configuration management procedures by ensuring that software
       updates were applied and users had only the access privileges necessary to
       perform their duties; and,

       Enhanced its system for tracking cyber security related corrective actions to
       resolution.

Although these actions are noteworthy, our evaluation disclosed several opportunities to
improve the effectiveness and decrease the risk associated with the Commission's cyber
security program. Specifically, we observed that:

       While problems with access controls associated with strong password
       management had declined since our 2005 evaluation, testing revealed continuing
       problems with default, blank, or easily guessed passwords, and user account
       controls; and,

       Security assessments performed in connection with system certification and
       annual security reviews had not been properly executed or were not adequately
       documented for each of the four systems we evaluated.

These vulnerabilities existed because the Commission had not ensured that certain
aspects of its cyber security program conformed to either Federal or Commission
requirements or guidelines. Weaknesses such as the ones we discovered detract from the
overall effectiveness of the Commission's cyber security program and potentially expose
its information technology resources and data to compromise. As indicated above, we
believe that the Commission's overall cyber security posture has improved, however,
additional work is necessary to ensure that its information and systems are properly
protected from the threat associated with unauthorized or malicious access by insiders. In
that connection, we have made several recommendations designed to aid management in
achieving that goal.

Due to security considerations, information on specific vulnerabilities has been omitted.
However, management officials have been provided with detailed information regarding
identified vulnerabilities, and according to management officials, corrective actions have
either been completed or initiated.

MANAGEMENT REACTION

Management concurred with each of our recommendations and indicated that it had taken
corrective action to address each of the problems identified in the report. While
management recognized that password weaknesses increase the risk of compromise, it
did not believe that the problems we identified were significant. We disagree and note
that a knowledgeable insider could have exploited the problem passwords - introducing
viruses, worms or other malicious programs that could have damaged the Commission's
systems. Management's comments and our responses are summarized in the body of our
report. Management's comments, in their entirety, are included in Appendix 3.

Attachment
cc:   Chief of Staff
      Chief Information Officer, .IM-
                                    1
REPORT ON MANAGEMENT CONTROLS OVER THE FEDERAL
ENERGY REGULATORY COMMISSION'S UNCLASSIFIED CYBER
SECURITY PROGRAM - 2006



TABLE OF
CONTENTS

              Cyber Security Program

              Details of Finding ...................................................................1

              Recommendations...................................................................4

              Management Reaction and Auditor Comments......................4



              Appendices

              1. Objective, Scope, and Methodology..................................7

              2. Related Audit Reports........................................................9

              3. Management Comments ..................................................11
CYBER SECURITY PROGRAM

Risk Management and   Our evaluation disclosed that the Federal Energy
Control Procedures    Regulatory Commission (Commission) had made
                      improvements in its cyber security program and had
                      corrected previously reported weaknesses. Specifically, the
                      Commission improved its configuration management
                      procedures to ensure that only current software versions
                      were used and that user access privileges were restricted to
                      the least level required for job performance. The cyber
                      security corrective action management process had also
                      been modified to ensure that all vulnerabilities and
                      weaknesses were identified and tracked to resolution. In
                      spite of these efforts, several opportunities exist to improve
                      the effectiveness of the Commission's cyber security
                      program as it relates to access controls and security
                      assessments.

                                            Access Controls

                      We continued to find that controls over passwords were not
                      always effective. The Commission policy related to
                      passwords requires, among other things, that passwords
                      must be in place for all systems and that they must be
                      unique, difficult to guess, and a minimum length of eight
                      characters. Passwords are a critical element of computer
                      security and provide the basis for controlling access and
                      establishing accountability by identifying and
                      authenticating users. However, our testing revealed that
                      easily guessed, blank, or default passwords existed on
                      several of the Commission's systems. This condition, first
                      reported in our Evaluation Report on the Federal Energy
                      Regulatory Commission's Unclassified Cyber Security
                      Program-2005 (DOE/IG-0704), continued to exist despite
                      action taken by Commission officials to correct the
                      problem.

                      In addition, we also observed that controls designed to
                      discover and suspend access for inactive accounts were not
                      always effective. The Commission's Unused Accounts
                      Standard Operating Procedures require that unused network
                      accounts be disabled after 90 days of inactivity to reduce
                      the risk of unauthorized system access. However, our
                      testing revealed that 20 network user accounts remained
                      active even though they had not been used for almost a
                      year. Management explained that delays in removing
                      inactive network accounts were largely due to an


________________________________________________________________
Page 1                                            Details of Finding
CYBER SECURITY PROGRAM

                      incomplete validation process for the identified accounts
                      prior to their intended disablement. They stated that the
                      validation process involved receiving confirmation from
                      the Commission's Administrative Officers, which had not
                      occurred for the accounts we identified.

                                         Security Assessments

                      Security assessments performed in connection with system
                      certification and annual security reviews had not been
                      performed properly or were not adequately documented for
                      each of the four systems evaluated. Annual security
                      assessments, required by Office of Management and
                      Budget (OMB) guidance, determine the extent to which the
                      security controls are implemented correctly, operating as
                      intended, and producing the desired outcome. Specifically,
                      the assessments did not evaluate the level of effectiveness
                      of many of the 36 critical control elements specified in
                      National Institute of Standards and Technology (NIST)
                      requirements. Consideration of critical elements, such as
                      those in place to plan for contingencies; to prevent
                      interception of data; and to respond to incidents, had been
                      omitted. For example, one assessment measured the
                      effectiveness of only 2 of the 36 critical elements, while 2
                      other assessments only measured the effectiveness of 7 and
                      9 elements, respectively.

                      We also identified problems with properly preparing and
                      updating assessments prior to re-certification of systems
                      that had previously been provided with authority to operate.
                      For example, management officials told us that, while they
                      had performed the required assessment for one of the
                      agency's systems, they had not documented it and could not
                      provide information necessary for us to evaluate the
                      sufficiency of the procedure. Officials also had not
                      properly updated self-assessments to reflect the required
                      supporting security controls prior to granting systems with
                      continued authority to operate. For one assessment,
                      officials indicated that 61 percent of the required controls
                      were not applicable without explaining why, and in another
                      case either totally excluded or did not explain why 79
                      percent of the required controls were not necessary.




________________________________________________________________
Page 2                                            Details of Finding
CYBER SECURITY PROGRAM

Program               These vulnerabilities existed, in part, because the
Implementation and    Commission had not ensured that certain aspects of its
Oversight             cyber security program conformed to Federal requirements
                      and guidelines. Specifically, continued access control
                      problems were a direct result of configuration controls that
                      were not applied in accordance with the Commission's own
                      requirements and the guidelines set forth by NIST. In
                      addition, the Commission's annual system security review
                      process was not performed in accordance with OMB
                      requirements and did not address all of the critical control
                      elements as defined by NIST requirements.

                      Information technology management officials told us that,
                      rather than conforming to OMB requirements, they chose
                      to adopt their own approach to certification and
                      accreditation that was better suited to the size and limited
                      resources available to their organization. They believed
                      that after considering the risk associated with their systems,
                      it was appropriate to omit certain steps required by NIST
                      guidance when re-certifying the Commission's systems for
                      operation. Rather than specifically considering each of the
                      NIST-prescribed critical security elements, these officials
                      relied instead on self-assessments performed by system
                      owners, a review and update of the system risk assessment
                      by the certification agent, system owner, and other
                      stakeholders to establish a basis for re-accrediting systems.

                      While we did not attempt to determine whether departure
                      from NIST guidance was appropriate or advisable in any
                      circumstance, we believe that because of the deficiencies
                      and omissions from the original assessments performed on
                      these systems such approach was not appropriate and
                      increased the risk associated with their operation. As
                      previously noted, many of the 36 NIST-prescribed critical
                      security elements had not been considered when these
                      systems were initially authorized to operate. As such, the
                      assessments did not provide assurance that systems security
                      controls were in place and operating as intended nor did
                      they provide a sufficient basis for the accrediting official to
                      either authorize the system to operate or accept residual
                      risks.

Operational Impacts   Although the Commission's overall cyber security posture
                      had improved, information resources remain vulnerable.
                      As a result, the information and systems that support the



________________________________________________________________
Page 3                                            Details of Finding
                     Commission's missions and business activities could be at
                     risk of compromise. For example, weak passwords and the
                     failure to identify and disable unused accounts could result
                     in unauthorized access to Commission information
                     resources by malicious users. Inadequate evaluation of
                     system security controls to thoroughly verify the
                     implementation of security controls could also result in
                     undetected information security weaknesses that may
                     hinder the Commission's effort to effectively secure its
                     systems.


RECOMMENDATIONS      Weaknesses identified during the course of our evaluation
                     were discussed with Commission officials and actions were
                     taken to resolve certain problems identified. However, to
                     improve cyber security within the Commission, we
                     recommend that the Executive Director take action to:

                        1. Ensure that procedures are implemented for
                           securely configuring the Commission's systems by
                           (a) prohibiting the use of easily guessed, blank or
                           default passwords that do not adhere to NIST
                           guidelines; and, (b) correcting systems with
                           improperly configured security settings for various
                           network services;
                        2. Review and update the procedures relating to
                           unused network accounts to enforce the
                           identification and removal of inactive accounts in a
                           timely manner; and,
                        3. Ensure that the annual security review processes,
                           used to support the certification and accreditation of
                           systems, thoroughly address the critical control
                           requirements defined by NIST.


MANAGEMENT           Management concurred with our findings and
REACTION             recommendations, but offered clarifying remarks.
AND AUDITOR          Management's proposed and stated actions are responsive
COMMENTS             to our recommendations. In reference to specific
                     comments, management reaction and auditor comments
                     follow:
                     Recommendation 1: Ensure that procedures are
                     implemented for securely configuring the Commission's
                     systems by (a) prohibiting the use of easily guessed, blank

________________________________________________________________
Page 4                                Recommendations & Comments
                     or default passwords that do not adhere to NIST guidelines;
                     and, (b) correcting systems with improperly configured
                     security settings for various network services.

                     Management Comments: Management stated they
                     confirmed that there were nine accounts identified as
                     having blank or weak passwords. They added that these
                     were local accounts without network access and only two
                     of these accounts provided any elevated privileges to the
                     computer. They also noted that only a small percentage of
                     the Commission's passwords were found to have
                     vulnerabilities.

                     Auditor Response: We identified a total of 12 blank or
                     weak passwords, including 9 that could have permitted
                     access to the Commission's file servers. Of the nine blank
                     or weak passwords, one of the blank password accounts
                     had an attribute which indicated it was an account with
                     elevated privileges. Two other accounts with blank
                     passwords were system administrator accounts -- accounts
                     highly vulnerable to exploits. As noted by management in
                     their comments, even a small number of accounts whose
                     passwords are not compliant with organizational policy,
                     represent a security issue. For example, gaining
                     unauthorized access via blank or weak passwords could
                     allow a user to compromise systems by installing a trojan,
                     which is a malicious program disguised as or embedded
                     within legitimate software; or a keylogger, which captures
                     the user's keystrokes, providing a means of obtaining
                     unauthorized information.

                     Management Comment: Management indicated that in
                     order to exploit any of these local accounts, a perpetrator
                     must have either authorized access to the Commission's
                     internal network protected by Microsoft® Active Directory
                     or physical access which would require the circumvention
                     of three increasingly restrictive physical layers of defense,
                     using an authorized badge. They stated that the only way a
                     person without foreknowledge could have discovered the
                     existence of these particular local accounts would be to
                     scan the network and that any internal scanning process
                     would have been detected by the Commission's Intrusion
                     Detection System.

                     Auditor Response: We agree that these accounts are most
                     vulnerable to knowledgeable insiders – an increasing threat

________________________________________________________________
Page 5                                Recommendations & Comments
                     to information technology assets in both Federal and
                     private sector organizations. The audit tests that revealed
                     these password weaknesses were specifically designed to
                     evaluate the "insider threat" associated with an employee or
                     someone who is permitted access to the facility. This
                     scenario assumes the user has network access and that
                     through exploitation of vulnerabilities is able to escalate
                     their assigned level of privileges. Furthermore, although the
                     Commission runs an Intrusion Detection System,
                     exploitation of the vulnerabilities we identified and the
                     infliction of potential damage may have been possible prior
                     to detection by the incident response team.
                     Recommendation 3: Ensure that the annual security review
                     processes, used to support the certification and
                     accreditation of systems, thoroughly address the critical
                     control requirements defined by NIST.
                     Management Comment: Management stated they believe
                     they complied with the guidance in NIST SP 800-26 for
                     annual security reviews, but added that they acknowledge
                     that its administrative documentation did not appear to
                     satisfy the IG's definition of acceptable artifacts. They
                     noted they follow system certification and annual security
                     review processes that balance risk and cost and, when
                     appropriate, leverage security assessment activities already
                     performed during the course of the fiscal year. They also
                     stated that these processes incorporate enterprise and
                     system scans, contingency plan testing, and security test
                     and evaluation of technical controls.

                     Auditor Comment: We are gratified that management, in
                     response to our recommendation, had taken action to
                     complete updates to its self-assessments. Our report does
                     not take issue with the Commission's systems certification
                     and annual security review methodologies. However, as
                     we noted, both the systems certification process and the
                     annual security review process relied on NIST SP 800-26
                     system self-assessments that failed to consider most of the
                     36 critical control elements specified in NIST requirements.
                     Reporting guidance for the FISMA, issued by the OMB,
                     requires that annual security reviews be performed in
                     accordance with specific NIST requirements.

                     Management's comments are included in their entirety in
                     Appendix 3.



________________________________________________________________
Page 6                                Recommendations & Comments
Appendix 1

OBJECTIVE             In accordance with the Federal Information Security
                      Management Act of 2002 (FISMA or the Act), the Office of
                      Inspector General (OIG) performed an independent
                      evaluation to assess the adequacy and effectiveness of the
                      Commission's information security policies, procedures,
                      and practices, and compliance with the requirements of the
                      Act.


SCOPE                 The evaluation was performed between July and September
                      2006 at the Commission in Washington, DC. Specifically,
                      we performed an evaluation of the Commission's Fiscal
                      Year 2006 unclassified cyber security program. The
                      evaluation included a review of general and application
                      controls in areas such as entity-wide security planning,
                      access controls, application software development, change
                      controls, segregation of duties and service continuity. Our
                      work did not include a determination of whether
                      vulnerabilities found were actually exploited and used to
                      circumvent existing controls.


METHODOLOGY           To assess the adequacy and effectiveness of the
                      Commission's information security policies and practices,
                      we:

                         •   Reviewed Federal statutes and guidance applicable
                             to ensuring the effectiveness of information security
                             controls over information resources supporting
                             Federal operations and assets such as FISMA
                             guidance and OMB Circular A-130, Appendix III,
                             and NIST standards and guidance;

                         •   Reviewed the Commission's overall cyber security
                             program to evaluate the adequacy and effectiveness
                             of information security policies, procedures, and
                             practices, and compliance with the requirements of
                             FISMA;

                         •   Assessed controls over network operations to
                             determine the ineffectiveness of safeguarding
                             information resources from unauthorized internal
                             and external sources;




________________________________________________________________
Page 7                             Objective, Scope, and Methodology
Appendix 1 (continued)

                         •   Performed our evaluation in conjunction with our
                             annual audit of the Commission's Financial
                             Statements, utilizing work performed by KPMG
                             LLP (KPMG), the OIG's contract auditor. KPMG's
                             efforts included analysis and testing of general and
                             application controls for systems as well as
                             vulnerability scanning of networks; and,

                         •   Analyzed OIG reports issued between 2003 and
                             2005 and reviewed other audits and evaluations
                             performed by the Government Accountability
                             Office (GAO) and OMB.

                      We evaluated the Commission's implementation of the
                      Government Performance and Results Act of 1993 related
                      to the establishment of performance measures for
                      unclassified cyber security. We did not rely solely on
                      computer-processed data to satisfy our objectives.
                      However, computer assisted audit tools were used to
                      perform probes of various networks and devices. We
                      validated the results of the scans by confirming the
                      weaknesses disclosed with Commission officials and
                      performed other procedures to satisfy ourselves as to the
                      reliability and competence of the data produced by the
                      tests.

                      The evaluation was conducted in accordance with generally
                      accepted government auditing standards for performance
                      audits and included tests of internal controls and
                      compliance with laws and regulations to the extent
                      necessary to satisfy our objective. Accordingly, we
                      assessed internal controls regarding the development and
                      implementation of automated systems. Because our review
                      was limited, it would not necessarily have disclosed all
                      internal control deficiencies that may have existed at the
                      time of our evaluation.

                      An exit conference was held with Commission officials on
                      September 20, 2006.




________________________________________________________________
Page 8                             Objective, Scope, and Methodology
Appendix 2

                           RELATED AUDIT REPORTS


  •   Information Security: Federal Agencies Show Mixed Progress in Implementing
      Statutory Requirements (GAO 06-527T, March, 2006). GAO reported that in its
      Fiscal Year (FY) 2005 report to Congress, Office of Management and Budget
      noted that the Federal Government had made progress in meeting key
      performance measures for information security; however, uneven implementation
      of security efforts has left weaknesses in several areas. The FY 2005 reports
      submitted by the agencies presented a mixed picture of Federal Information
      Security Management Act of 2002 (FISMA or the Act) implementation in the
      Federal Government. In their FY 2005 reports, 24 major Federal agencies
      generally reported an increasing number of systems meeting key information
      security performance measures, such as percentage of systems certified and
      accredited and percentage of contingency plans tested. Nevertheless, progress
      was uneven. For example, the percentage of agency systems reviewed declined
      from 96 percent in 2004 to 84 percent in 2005. GAO further reported that Federal
      entities can act to improve the usefulness of the annual FISMA reporting process
      and to mitigate underlying information security weaknesses.

  •   Evaluation Report: The Federal Energy Regulatory Commission's Unclassified
      Cyber Security Program - 2005 (DOE/IG-0704, October 2005). While the
      Federal Energy Regulatory Commission (Commission) continues to make strides
      toward improving its unclassified cyber security program, our current evaluation
      revealed several problems that have the potential to put the Commission's systems
      at risk. These problems were found in the areas of access controls, configuration
      management, and corrective action reviews. These problems existed because the
      Commission had not consistently performed compliance evaluations required by
      Federal and organization-specific security directives. As a result, the
      Commission's systems were at risk of disruption of operations, modification or
      destruction of sensitive data or programs, or theft or improper disclosure of
      confidential business information.

  •   Evaluation of the Federal Energy Regulatory Commission's Cyber Security
      Program 2004 (OAS-L-04-21, September 2004). Despite making improvements
      in its unclassified cyber security program, the Commission had not completed
      contingency planning, risk management, and certification and accreditation of
      systems. Although the Commission used the National Institute of Standards and
      Technology (NIST) risk assessment methodology as required by FISMA, it had
      yet to finalize a risk assessment methodology tailored to its needs - a key step in
      determining current security vulnerabilities within an organization and
      implementing mitigating controls. Additionally, at the time of the evaluation the
      Commission had only completely tested one of its five system-level contingency
      plans. Successful completion of these ongoing initiatives should help correct
      remaining cyber security problems at the Commission.


________________________________________________________________
Page 9                                        Related Audit Reports
Appendix 2 (continued)


  •   Evaluation of the Federal Energy Regulatory Commission's Cyber Security
      Program 2003 (OAS-L-03-21, September 2003). The evaluation of the
      Commission's unclassified cyber security program reported that significant
      progress was made in resolving weaknesses reported during the 2002 evaluation.
      However, plans for maintaining or resuming critical operations in the event of an
      emergency or disaster had not been completed.




________________________________________________________________
Page 10                                       Related Audit Reports
Appendix 3




________________________________________________________________
Page 11                                     Management Comments
Appendix 3 (continued)




________________________________________________________________
Page 12                                     Management Comments
Appendix 3 (continued)




________________________________________________________________
Page 13                                     Management Comments
                                                             IG Report No. OAS-M-06-10

                       CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the audit would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have
   been included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's
   overall message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the
   issues discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should
   we have any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:

                           Office of Inspector General (IG-1)
                                 Department of Energy
                                Washington, DC 20585

                              ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

            U.S. Department of Energy Office of Inspector General Home Page
                               http://www.ig.energy.gov/
    Your comments would be appreciated and can be provided on the Customer Response Form
